<html>
<title> - [H.A.S.C. No. 111-28]SECURITY DEVELOPMENTS IN THE AREAS OF RESPONSIBILITY OF THE U.S. PACIFIC COMMAND, U.S. EUROPEAN COMMAND, AND U.S. FORCES KOREA</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]





                         [H.A.S.C. No. 111-28]

   SECURITY DEVELOPMENTS IN THE AREAS OF RESPONSIBILITY OF THE U.S. 
     PACIFIC COMMAND, U.S. EUROPEAN COMMAND, AND U.S. FORCES KOREA

                               __________

                                HEARING

                               BEFORE THE

                             FULL COMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             MARCH 24, 2009

[GRAPHIC)(S) NOT AVAILABLE IN TIFF FORMAT]





                  U.S. GOVERNMENT PRINTING OFFICE
51-664                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                                     
                   HOUSE COMMITTEE ON ARMED SERVICES
                     One Hundred Eleventh Congress

                    IKE SKELTON, Missouri, Chairman
JOHN SPRATT, South Carolina          JOHN M. McHUGH, New York
SOLOMON P. ORTIZ, Texas              ROSCOE G. BARTLETT, Maryland
GENE TAYLOR, Mississippi             HOWARD P. ``BUCK'' McKEON, 
NEIL ABERCROMBIE, Hawaii                 California
SILVESTRE REYES, Texas               MAC THORNBERRY, Texas
VIC SNYDER, Arkansas                 WALTER B. JONES, North Carolina
ADAM SMITH, Washington               W. TODD AKIN, Missouri
LORETTA SANCHEZ, California          J. RANDY FORBES, Virginia
MIKE McINTYRE, North Carolina        JEFF MILLER, Florida
ELLEN O. TAUSCHER, California        JOE WILSON, South Carolina
ROBERT A. BRADY, Pennsylvania        FRANK A. LoBIONDO, New Jersey
ROBERT ANDREWS, New Jersey           ROB BISHOP, Utah
SUSAN A. DAVIS, California           MICHAEL TURNER, Ohio
JAMES R. LANGEVIN, Rhode Island      JOHN KLINE, Minnesota
RICK LARSEN, Washington              MIKE ROGERS, Alabama
JIM COOPER, Tennessee                TRENT FRANKS, Arizona
JIM MARSHALL, Georgia                BILL SHUSTER, Pennsylvania
MADELEINE Z. BORDALLO, Guam          CATHY McMORRIS RODGERS, Washington
BRAD ELLSWORTH, Indiana              K. MICHAEL CONAWAY, Texas
PATRICK J. MURPHY, Pennsylvania      DOUG LAMBORN, Colorado
HANK JOHNSON, Georgia                ROB WITTMAN, Virginia
CAROL SHEA-PORTER, New Hampshire     MARY FALLIN, Oklahoma
JOE COURTNEY, Connecticut            DUNCAN HUNTER, California
DAVID LOEBSACK, Iowa                 JOHN C. FLEMING, Louisiana
JOE SESTAK, Pennsylvania             MIKE COFFMAN, Colorado
GABRIELLE GIFFORDS, Arizona          THOMAS J. ROONEY, Florida
NIKI TSONGAS, Massachusetts
GLENN NYE, Virginia
CHELLIE PINGREE, Maine
LARRY KISSELL, North Carolina
MARTIN HEINRICH, New Mexico
FRANK M. KRATOVIL, Jr., Maryland
ERIC J.J. MASSA, New York
BOBBY BRIGHT, Alabama
                    Erin C. Conaton, Staff Director
                Julie Unmacht, Professional Staff Member
              Aileen Alexander, Professional Staff Member
                    Caterina Dutto, Staff Assistant
















                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2009

                                                                   Page

Hearing:

Tuesday, March 24, 2009, Security Developments in the Areas of 
  Responsibility of the U.S. Pacific Command, U.S. European 
  Command, and U.S. Forces Korea.................................     1

Appendix:

Tuesday, March 24, 2009..........................................    35
                              ----------                              

                        TUESDAY, MARCH 24, 2009
   SECURITY DEVELOPMENTS IN THE AREAS OF RESPONSIBILITY OF THE U.S. 
     PACIFIC COMMAND, U.S. EUROPEAN COMMAND, AND U.S. FORCES KOREA
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McHugh, Hon. John M., a Representative from New York, Ranking 
  Member, Committee on Armed Services............................     3
Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
  Committee on Armed Services....................................     1

                               WITNESSES

Craddock, Gen. Bantz J., USA, Commander, U.S. European Command, 
  NATO Supreme Allied Commander Europe...........................     5
Keating, Adm. Timothy J., USN, Commander, U.S. Pacific Command...     4
Sharp, Gen. Walter L. ``Skip,'' USA, Commander, United Nations 
  Command, Commander, Republic of Korea-U.S. Combined Forces 
  Command, Commander, U.S. Forces Korea..........................     6

                                APPENDIX

Prepared Statements:

    Craddock, Gen. Bantz J.......................................    81
    Keating, Adm. Timothy J......................................    42
    Sharp, Gen. Walter L. ``Skip''...............................   161
    Skelton, Hon. Ike............................................    39

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Lamborn..................................................   196
    Mr. Larsen...................................................   195
    Mr. Wilson...................................................   195
 
   SECURITY DEVELOPMENTS IN THE AREAS OF RESPONSIBILITY OF THE U.S. 
     PACIFIC COMMAND, U.S. EUROPEAN COMMAND, AND U.S. FORCES KOREA

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                           Washington, DC, Tuesday, March 24, 2009.
    The committee met, pursuant to call, at 1:06 p.m., in room 
2118, Rayburn House Office Building, Hon. Ike Skelton (chairman 
of the committee) presiding.

 OPENING STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM 
        MISSOURI, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. Welcome. Today the Committee will continue 
its annual series of posture hearings with combatant 
commanders. I am pleased to welcome Admiral Timothy Keating, 
Commander of the U.S. Pacific Command (U.S. PACOM); General 
Bantz Craddock, Commander of the U.S. European Command (U.S. 
EUCOM) and Supreme Allied Commander of the North Atlantic 
Treaty Organization (NATO); and General ``Skip'' Sharp, 
Commander of the U.S. Forces Korea (USFK), who we visited with 
in Korea not so long ago. Thank you very, very much for being 
with us, and thank you for your leadership.
    Over the last several years, we have been so focused on 
Iraq and Afghanistan that a broad range of security challenges 
and potential flashpoints elsewhere in the world have not 
gotten the attention that they merit.
    Let me review a few of the challenges ahead in the Asia-
Pacific. The rebasing of American Marines from Japan to Guam is 
one of the largest movements of military assets in decades, 
estimated to cost over $10 billion. In my estimation, that is 
openers. Yet it is not clear that the Department of Defense 
(DOD) has fully thought through all the plans to support the 
Marines on Guam or those remaining in Okinawa.
    As Admiral Keating knows, a delegation from this committee 
recently returned from Okinawa and Guam. The changes being 
planned as part of that move affect not only our bilateral 
relationship with Japan, they shape our strategic posture 
throughout the critical Asia-Pacific region for at least 50 
years to come. I am deeply concerned that the current plans do 
not address all the concerns that would impact our ability to 
train fully and also to operate and fight in the region if we 
must. We must get that right.
    In Korea, the plans for relocation appear solid, but there 
are remaining questions about how the upcoming transformation 
of the U.S.-South Korean Command relationship will account for 
the range of scenarios that could emerge on the Korean 
Peninsula. General Sharp went into this with us when we had the 
chance to visit with him.
    At the same time, North Korea has threatened to test a 
missile that could theoretically reach the west coast of the 
United States, and serious concerns remain about the regime's 
nuclear capabilities.
    China has just announced another double-digit increase in 
its military budget. And security relations with China remain 
strained following the harassment of an American naval vessel 
by Chinese ships in the South China Sea.
    India's relations with Pakistan remain strained following 
the terrorist bombing last year. Throughout Indonesia, the 
Philippines, and much of Southeast Asia, the threat of 
terrorism, violence and instability remain extraordinarily 
high. And while we have been preoccupied in the Middle East, 
China and others have been expanding their influence in Latin 
America, Africa, as well as around the globe.
    In Europe, the recent conflict between Georgia and Russia 
was a stark reminder that our security challenges in the region 
are still very real. It is a region with real and latent 
frictions, including the ever-present instability in the 
Balkans. EUCOM plays an important role in the stability and 
security of the continent, and NATO is also as important as 
ever. Still, we have come to regard NATO chiefly as a resource 
to be employed elsewhere. We shouldn't forget its original 
purpose. While closer ties with Russia are to be encouraged, 
Russia's actions in Georgia, its ties with Venezuela, and its 
involvement in the natural gas crisis this winter remind us 
that NATO is first and foremost an organization for collective 
security in Europe.
    I remain deeply concerned about NATO's mission in 
Afghanistan. The administration will shortly put forward a 
strategy for Afghanistan as well as Pakistan. What is clear to 
me, while additional American investment and leadership is 
needed, our allies must do more as well. The problems from that 
region affect us all. I know NATO allies have increased their 
contributions to that mission in recent years, but I remain 
concerned about the restriction some nations put on the 
employment of their forces. In some cases, it is a question 
about national will, but to the extent those decisions reflect 
concerns about capability, I encourage EUCOM to continue to do 
the sorts of capacity-building efforts that have shown such a 
positive impact over the years, both with our NATO allies as 
well as other regional partners.
    This is a time when we should be proactively engaged in the 
Asia-Pacific region and in Europe on multiple fronts, and 
realize that our own actions may well influence the choices and 
actions of others. I am pleased to see the Department of 
Defense and the Obama Administration already taking a number of 
positive steps in that direction, and I hope to see more as we 
move forward.
    We look forward to hearing from you, gentlemen. Before we 
begin our testimony, I turn to the Ranking Member, my friend, 
my partner, John McHugh, the gentleman from New York, for any 
statement.
    [The prepared statement of Mr. Skelton can be found in the 
Appendix on page 39.]

  STATEMENT OF HON. JOHN M. MCHUGH, A REPRESENTATIVE FROM NEW 
       YORK, RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. McHugh. Thank you very much, Mr. Chairman.
    Let me add my words of welcome to our three distinguished 
guests. If my math is correct, we have three outstanding 
individuals who wear, collectively, six different hats. And 
although we are here today for a very specific discussion with 
three of those hats, clearly their other responsibilities, both 
individually and collectively, distinguishes their leadership 
as some of the best on the planet today. And, gentlemen, thank 
you.
    And, of course, as always, please carry back with you all 
of our--the Chairman's, mine, all of the Members' greatest 
compliments to those brave men and women that you lead every 
day, meeting the challenges of securing freedom and democracy 
across the planet.
    We do have some votes coming up at about 1:30, and as much 
as the Chairman and I like to hear ourselves talk, we are 
really here to listen more than that. But let me just make a 
couple of points. For those who are interested, they can read 
my full statement at their leisure.
    [The information referred to was not available at the time 
of printing.]
    Mr. McHugh. Let me start off with our discussions in recent 
days about the so-called ``Russia reset policy.'' And as the 
Chairman noted, since the Georgia conflict, it has been a time 
of challenge for us, for our NATO allies, as to what EUCOM has 
called a ``reevaluation of the strategic environment,'' which 
includes a U.S. strategy for Russia and evaluation of U.S. 
force presence in Europe. And I am sure we would all like to 
better understand how this engagement with Russia will affect 
EUCOM's strategic revaluation.
    I would just caution, as we proceed toward discussions with 
Russia--and I fully support that--I would be greatly concerned 
that our rush toward what has been described as a grand bargain 
with Russia may unnecessarily--hopefully not--but unnecessarily 
risk the viability of the very security architecture that has 
kept the European continent peaceful for some six decades now. 
Russian misdeeds and provocations over the past year, as well 
as their planned security treaty with Europe, suggests the 
Kremlin, in my judgment, seeks to weaken NATO, marginalize U.S. 
influence in Europe, and gain a veto over European security 
affairs.
    I think, as the Chairman indicated, we need a focused eye 
on what I would call a ``NATO first'' policy, which would make 
clear to our allies in NATO that U.S. bilateral engagement with 
Russia will not foster collective insecurity amongst those very 
important partners.
    Let me note, with regard to Admiral Keating and General 
Sharp, first of all, you have traveled great distances to be 
here. Thank you for that effort.
    And in terms of your responsibilities, let me note, as the 
Chairman again noted, that earlier this month the Chinese 
fishing vessels' aggressive harassment of the USNS Impeccable 
in the South China Sea should merit our most careful attention. 
Sadly, this isn't the first time we have seen China attempt to 
exert its sovereignty rights with very grave implications to 
U.S. military operations. The January 2000 anti-satellite 
(ASAT) test is another example. And at the end of 2008, China 
sent naval forces to the Gulf of Aden to protect its economic 
interests there, demonstrating what I think can be fairly 
described as a demonstrative shift in deploying military assets 
further away from China's territory, and, of course, its 
territorial waters. Your gentlemen's assessment of China's 
military objectives and activities around the region and around 
the world as to how they affect U.S. policy and security 
interests will be greatly valued.
    Moving on. In testimony before the Senate last week, some 
of our witnesses expressed uncertainty as to whether North 
Korea plans to launch a communications satellite or test an 
offensive missile next month. The Taepodong-2 long-range 
missile could reach as far as Hawaii and Alaska, as well as 
impact our allies in the region. In my mind, this great 
uncertainty underscores the necessity for an effective 
operational missile defense system that places a priority on 
protecting the United States and our allies. It seems to me 
this should also be a serious indicator that perhaps now is not 
the most effective time for the United States to make cuts to 
missile defense capabilities as at least some reports have 
suggested may indeed happen.
    In that regard, I would appreciate, both Admiral Keating 
and General Sharp, any comments you might wish to make on our 
capabilities to shoot down the long-range missile, should it 
become necessary.
    Lastly, terrorist activity in the region is an issue of 
grave concern. Many of our allies in the region are impacted by 
transnational terrorism threats, including the Philippines, who 
are cooperating with U.S. forces to reduce the footprint of the 
Abu Sayyaf group, and in India, in which the recent Mumbai 
attack highlighted the continued presence of terrorist 
activity. And I know we are all interested in hearing how PACOM 
is cooperating with our allies in the region, as well as U.S. 
Central Command (USCENTCOM) and U.S. Special Operations Command 
(USSOCOM), to address incidents of terrorism in South Asia.
    The Chairman outlined a number of other initiatives that 
indeed merit our greatest attention. We look forward to your 
comments.
    With that, Mr. Chairman, I yield back the balance of my 
time.
    The Chairman. I thank the gentleman.
    We look forward to your testimony, and we will go right 
down the line.
    We are blessed to have folks of your caliber and your 
ability in your positions, and we thank you again for your 
service as well as your appearance today.
    Admiral Keating.

  STATEMENT OF ADM. TIMOTHY J. KEATING, USN, COMMANDER, U.S. 
                        PACIFIC COMMAND

    Admiral Keating. Mr. Chairman, Mr. McHugh, thank you for 
the privilege of testifying before your committee. I am honored 
to represent the 325,000 men and women in uniform in your 
United States Pacific Command.
    We just revised our command strategy to reflect as closely 
as we can the National Security Strategy (NSS) and National 
Military Strategy (NMS). In that revision, we have emphasized 
partnership, readiness, and presence. We think these are 
essential to sustaining and enhancing stability and security in 
our region.
    A couple of the issues that you mentioned, Chairman, you 
and I have had a fairly candid conversation about the Defense 
Policy Review Initiative (DPRI). Our department remains 
committed to implementing the DPRI writ large and the agreed 
implementation plan, which is concentrating on the movement of 
the Marines from Okinawa to Guam. There are challenges ahead, 
to be sure, Chairman, but I am confident that the larger issue 
of security in the Asia-Pacific region is well served by the 
movement of the Marines to Guam. It is our territory, and any 
and all efforts that we can use to enhance the training we 
receive there are beneficial to us.
    We enjoy five alliances in our Area of Responsibility 
(AOR); Japan, Thailand, South Korea, Australia, and the 
Philippines. Congressman McHugh, you mentioned the Philippines. 
We have around 650 Special Operations forces (SOF) there now as 
we speak, training the Armed Forces of the Philippines. And the 
AFP are making great strides in reducing the maneuverability 
and the sustainability of the Abu Sayyaf group and Jemaah 
Islamiyah terrorists that had been trying to secure a foothold 
in the southern Philippines.
    I would like to introduce two gentlemen who have 
accompanied me from Pacific Command, our foreign policy 
advisor, Ambassador Gene Christy, who is of inestimable value 
as we develop and improve on our strategy. He is great at 
telling us how to use smart power; that is to say, all of the 
tools of the interagency. And Gene has become an indispensable 
member of our team.
    And finally, Chief Master Sergeant Jim Roy, our Senior 
enlisted leader, who has traveled far and wide throughout our 
area. He has done remarkable work to enhance the position that 
we enjoy with many of our allies and friends throughout the 
theater.
    I look forward to your questions. And I thank you for the 
opportunity, Chairman.
    The Chairman. Admiral, thank you very much.
    [The prepared statement of Admiral Keating can be found in 
the Appendix on page 42.]
    The Chairman. General Craddock.

   STATEMENT OF GEN. BANTZ J. CRADDOCK, USA, COMMANDER, U.S. 
     EUROPEAN COMMAND, NATO SUPREME ALLIED COMMANDER EUROPE

    General Craddock. Mr. Chairman, may I ask that my written 
statement be submitted to the committee for the record?
    The Chairman. Yes. All the statements that are proposed 
will be admitted in the record, without an objection.
    General Craddock. Chairman Skelton, Congressman McHugh, 
distinguished members of the committee, thank you for the 
opportunity to appear before you today to represent the 
dedicated men and women of the United States European Command.
    Here with me today are my EUCOM policy advisor, Ambassador 
Kate Canavan, sitting behind me; and my battle buddy, Command 
Sergeant Major Mark Farley. Both bring perspective, experience, 
and great wisdom to the command; and we are very appreciative 
that they are on the team.
    Also, if I may, I would like to thank my wingmen here 
today, Tim Keating and Skip Sharp. I can't imagine having two 
better wingmen on my flank; longtime friends, great 
professionals, and true commanders. So thank you.
    I am proud of the day-to-day work and the great 
achievements of the members of the U.S. European Command. Their 
endeavors daily range from planned partnership capacity events, 
such as airwing training with the Polish counterparts on C-130 
Hercules aircraft, all the way to crisis response actions, such 
as last summer's 21st Theater Sustainment Command (TSC) 
facilitating humanitarian support to the people of Georgia.
    In today's world we believe nations are repeatedly called 
on to do more. It is in this call that EUCOM's efforts in 
building partner capacity are indeed so important. The 
multinational operations of today and tomorrow succeed only if 
allies work together, and they must do that effectively. 
Interoperability and increased partner capacity are indeed 
essential, and our force presence is indispensable toward that 
end.
    Since 1952, the dedicated men and women of the United 
States European Command have remained committed to the security 
and defense of this great Nation. Your continued support allows 
us to sustain this proud tradition.
    Thank you. And I look forward to your questions.
    The Chairman. Thank you, gentleman.
    [The prepared statement of General Craddock can be found in 
the Appendix on page 81.]
    The Chairman. General Sharp.
    Will the gentleman suspend?
    We ask that the protesters leave right now. Please remove 
yourself.
    I want their names as they go out.
    General Sharp, please.

  STATEMENT OF GEN. WALTER L. ``SKIP'' SHARP, USA, COMMANDER, 
   UNITED NATIONS COMMAND, COMMANDER, REPUBLIC OF KOREA-U.S. 
     COMBINED FORCES COMMAND, COMMANDER, U.S. FORCES KOREA

    General Sharp. Chairman Skelton, Congressman McHugh, and 
distinguished members of this committee, on behalf of the 
outstanding men and women who serve in the Republic of Korea 
(ROK), thank you for your continued commitment to improving the 
readiness of our forces and the quality of life for our 
servicemembers, DOD civilians, and families. Your vital support 
ensures the security of the Republic of Korea, promotes 
prosperity and stability in Northeast Asia, and protects our 
shared national interests in the region.
    The Republic of Korea is our partner in one of the most 
successful alliances in history, an alliance that is forged in 
blood and maintained by an enduring commitment and friendship 
of the Korean and the American people. The Republic of Korea 
Armed Forces have fought alongside Americans in Vietnam, 
participated in Operation Desert Storm, and deployed forces to 
Iraq and Afghanistan.
    The Republic of Korea is participating today in six United 
Nations (U.N.) peacekeeping missions around the world, and 
recently deployed a 4,500-ton destroyer and an antisubmarine 
helicopter to the waters off of Somalia to help conduct 
antipiracy operations.
    I want to thank you, the Members of Congress, for passing 
legislation that elevated the Republic of Korea foreign 
military sales to a NATO plus 5 status. This legislation will 
go a long way in ensuring and enhancing the alliance's combined 
warfighting capabilities.
    North Korea remains the primary threat to stability and 
security in Northeast Asia. Regime survival remains the North 
Koreans' overriding focus. North Korea remains the world's 
leading supplier of ballistic missiles and related technology, 
and remains a major proliferator of conventional weapons as 
well. North Korea's most recent provocative actions are all an 
attempt to ensure the regime's survival and improve its 
bargaining position at international negotiations to gain 
concessions.
    We continue to be concerned with the threat posed by North 
Korea's large conventional military, artillery, ballistic 
missiles, and Special Operations Forces, all that are located 
very near the north-south Korean border.
    My first priority as commander is to ensure that we have 
trained, ready and disciplined Combined and Joint Command that 
is prepared to fight and win against any potential conflict.
    The second priority is to continue to strengthen the 
alliance. In addition to improving military capabilities, the 
U.S. and the Republic of Korea forces are transforming into a 
more modern and capable force, allowing the Republic of Korea 
Armed Forces to retain wartime operational control until the 
17th of April, 2012. A U.S. force presence in Korea after 
operational control (OPCON) transition in 2012 will ensure an 
enduring and strong alliance. I am absolutely confident that 
this alliance will be successful both for the United States and 
the Republic of Korea, and will serve as a key foundation for 
future regional stability.
    My third priority is improving the quality of life for 
servicemembers, DOD civilians and their families in Korea. Our 
goal is to make the Republic of Korea the assignment of choice. 
Our implementation of tour normalization, normal three-year 
accompanied tours for the majority of our servicemembers, will 
significantly increase our warfighting capability and improve 
the quality of life for our personnel, while eliminating long 
and unnecessary separation for our servicemembers and their 
families.
    The U.S. presence in Northeast Asia is a long-term 
investment in regional stability, and the Republic of Korea-
U.S. alliance today is more relevant to the national interests 
of the United States than it has ever been before. The alliance 
will remain essential to the protection and advancement of the 
U.S. interests in this strategically vital part of the world 
well into the future.
    The Republic of Korea sits at the nexus of a region 
influenced by and influencing an emerging China, a resurgent 
Russia, and a prosperous Japan.
    The Army declared the year 2009 as ``The Year of the Non-
Commissioned Officer (NCO),'' and it is my great privilege to 
have the dedicated professional NCOs from all services 
defending this great alliance. Without them, none of the 
advances we have made in the Republic of Korea-U.S. alliance 
would have been possible.
    I am extremely proud of the soldiers, sailors, airmen, 
marines, DOD civilians and families serving in the Republic of 
Korea who selflessly support the alliance and help maintain 
stability throughout the region. On behalf of them, I want to 
thank you and this committee for your continued support, and I 
look forward to answering your questions.
    The Chairman. General Sharp, thank you very much.
    [The prepared statement of General Sharp can be found in 
the Appendix on page 161.]
    The Chairman. I understand that we have a Reserve Officers' 
Training Corps (ROTC) unit from a university in the State of 
Missouri. Would they please stand? Northwest Missouri State. To 
the future Army leaders of our country, thank you for joining 
us today.
    I make note for the committee, we are under the five-minute 
rule, with the exception of the Ranking Member and me, And we 
will do our best to keep within that.
    Let me ask just one question of each one of you. What is 
the deepest concern that you have for your area of operation? 
What bothers you the most?
    Admiral Keating.
    Admiral Keating. Chairman, we don't lose sleep over many 
things at our headquarters. The area of most concern is the 
spread of radical terrorists and those who would support them.
    As I mentioned in my opening statement, Chairman, I think 
we are making reasonable to good progress in our efforts to 
make life difficult for them, to reduce their number, and to 
reduce their support base.
    So that would be my answer, the spread of radical 
terrorism, sir.
    The Chairman. General Craddock.
    General Craddock. For me, what keeps me up at night is the 
concern of some NATO nations that there must be a solidarity in 
the Alliance in the call for an Article 4 or Article 5 force to 
guarantee sovereignty or to repel attack has to be answered in 
a positive way quickly. That also transcends into my European 
Command hat, because obviously, as the leader of NATO, the 
United States would have to respond accordingly.
    The Chairman. General Sharp.
    General Sharp. Sir, it is Kim Jong-Il and the North Korea 
regime, and his absolute desire to be able to do a military-
first policy, the fact that he has not taken care of his 
people, and the willingness to be able to do everything he can 
for his regime's survival in North Korea to include all the 
provocations that he has done recently.
    The Chairman. Mr. McHugh.
    Mr. McHugh. Thank you very much, Mr. Chairman.
    General Craddock, let me begin with you, sir, and the 
comments you just talked about, the future of our Transatlantic 
Security Agreement, principally through NATO.
    From what I have read and from what I have heard, there are 
several amongst that Alliance who have become concerned about 
our commitment and our ability--NATO writ large--to actually 
make good on the Article 5 assurances. You may have heard in my 
opening comments, I fully support engagement with Russia, but I 
do believe we should be, at the same time, equally focused on 
our relations with our NATO partners and ensuring that, in our 
efforts to approach the Russian issue and the Russian leaders, 
we don't fully undermine our NATO partners' confidence in those 
abilities.
    So I would ask you simply first, is that a legitimate 
concern on my behalf? And if so, what can we, as a Nation, do 
to underpin the NATO security agreements and the confidence in 
our NATO partners that those strategic alignments that have 
endured over the last 60 years will continue?
    General Craddock. Thank you, Congressman.
    I think as a result of August of last year with the Russian 
incursion into Georgia, the geopolitical situation changed; 
that for 15, 16 years the assumption made in our focus on 
Europe was that there would be no invasions of anyone's land 
borders. That turned upside down, and that created an angst, a 
sense of tension among many of the NATO nations.
    So I think that as we now understand it better, and as we 
move towards the future, the key here is to find and strike 
balance between Russia and the NATO members and NATO partners.
    In life, I think balance is a difficult thing to find, the 
tension between this and that. And we have got to strive to be 
able to accommodate the viewpoints of both, to the extent that 
we can, and then understand. And I believe we need to open up a 
dialogue and an engagement, both bilaterally--the United States 
with Russia--and also from an alliance perspective.
    What can the United States do? Presence. We are the leaders 
of the alliance. We must be in the alliance; we must be present 
for duty, visible, and that means with forces. That means in 
the diplomatic mode, the economic mode. We have to show that 
leadership day in and day out. We have to build partners', 
member nation confidence and capabilities. And also, we have to 
build non-NATO partners who, in the coming years, want to be a 
part of the Alliance. That means, again, there, present, 
engaging, building their capacities, building their 
capabilities day in and day out.
    Mr. McHugh. Is it fair to say that our NATO partners are 
looking very cautiously at our overtures towards Russia, and we 
need to balance the approach there? I mean, is that a 
reasonable statement?
    General Craddock. It is. I think that some of the NATO 
members are looking cautiously at what we are doing. Others are 
welcoming what we are doing. So, indeed, inside the Alliance 
there are perspectives based upon history, tradition, location, 
economic impacts, energy provisos. So I think there is a split 
in the Alliance, but overall, I think that the Alliance--my 
judgment, this is a political issue, but from where I sit, my 
observation would be that there would be a welcoming aspect to 
that.
    Mr. McHugh. Thank you.
    Admiral Keating, both the Chairman and I spoke about the 
USNS Impeccable and what happened there in the South China Sea 
off Hainan Island. What does that do downstream with respect to 
the rules of engagement you are going to put in place, if any, 
changes, as a result of that aggression?
    Admiral Keating. Congressman, it doesn't change anything. 
We were fully in accord with international rules of the road, 
with United Nations Law of the Sea Conventions. Our own rules 
of engagement were well rehearsed, and our guys and girls who 
were on the Impeccable were sufficiently trained and equipped. 
The escort vessel that we sent down, the USS Chung-Hoon, got 
there in short order, resumed operations very quickly 
thereafter.
    So the answer is, Congressman, we wouldn't do anything 
different. We are fully in accord with international standards 
and will continue to do so.
    Mr. McHugh. Mr. Chairman, given the bells, I will yield 
back.
    The Chairman. We have three votes, a 15-minute vote and two 
five-minute votes. We can go at least to one gentleman.
    I yield five minutes to the gentleman from Texas Mr. Ortiz. 
Immediately upon the cessation of the three votes, we will 
turn. Gentlemen, we will ask that you remain, and we will 
continue the hearing.
    Mr. Ortiz.
    Mr. Ortiz. Thank you, Mr. Chairman.
    First of all, thank you so much for your service to our 
country. We really appreciate the fine work that you are doing.
    General Craddock, U.S. Army Europe is in the process of 
reducing its troop levels from four brigades of combat teams to 
two. In your testimony you identified your near- and long-term 
objectives for your command. Now, what impact, if any, would 
the redeployment of forces have on your near- and long-term 
theater objectives? And what additional resources can Congress 
provide to assist you in meeting your objectives?
    One of the things that came out in Admiral Keating's 
testimony was partnership, readiness, friendship. Now, when 
those brigades come back home, what kind of relationship are 
you going to have, or what kind of joint training are you going 
to have with your neighbors in that theater?
    General Craddock. Thank you, Congressman.
    The planned objective, stay at two brigades vice the four 
we have now, means that we will reduce significantly, 50 
percent or more, our ability to train, exercise and work with 
NATO members and partners.
    I would submit to you that the presence we have had in 
Europe over the years is the reason that 87 percent of the 
allied contribution in Afghanistan and 70 percent in Iraq came 
from the EUCOM area of responsibility and is directly due to 
that engagement, that cross-leveling, that partnership, if you 
will, year after year.
    I grew up in Europe over multiple tours. Today's chiefs of 
land forces were those officers that I knew back when I was a 
junior officer and a colonel and a brigadier. So I think there 
is, indeed, a payoff there. We need to continue that, and we 
need to sustain the current force level for the future to 
accomplish the task I have been given by the Secretary and the 
Chairman, which is build partner nation capability. A reduction 
will minimize and reduce our ability to do that. I think it is 
critical that we continue to grow that in the future, and that 
we offer every possibility for this engagement. It has paid 
off, it will continue to pay off.
    Mr. Ortiz. I know that we are running out of time, and 
maybe we can let at least another Member ask a question, 
because we are going to have a long series of votes. But thank 
you very much for being with us today.
    The Chairman. At this time, we will go ahead and get the 
three votes and return. So stand ready.
    [Recess.]
    The Chairman. The hearing will resume, and Mr. Bartlett is 
up to bat.
    Mr. Bartlett. Thank you.
    Gentlemen, the Chairman asked you what concerns you in your 
area of command, and what kept you awake at night. I will tell 
you that, knowing you are there, I have few sleepless nights. 
Thank you very much for your service.
    General Craddock, I want to thank you for your efforts to 
develop a closer working relationship with Russia. I think this 
is enormously important.
    I would like for a moment for you to imagine with me that 
we had lost the Cold War. NATO is gone. The Warsaw Pact is 
alive and growing, and the next two countries that are going to 
become a part of the Warsaw Pact are Mexico and Canada. How do 
you think we would feel?
    General Craddock. Thank you, Congressman.
    Obviously, we are dealing with theoreticals there, and 
there is a wide range of how would we feel.
    Given what we know about the nature of the Warsaw Pact and 
the form of government, we would probably feel quite uneasy.
    Mr. Bartlett. I would suggest that when we try to take 
countries like Latvia and Ukraine into NATO, that the Russians 
probably have similar feelings. And I thank you very much for 
your efforts to work more closely with Russia. Considering the 
major concerns globally, they ought to be our friends; should 
they not?
    General Craddock. Well, I would hope that in order to 
strike up a friendship, we would have shared ideals and values 
and objectives.
    I would submit to you, my judgment is that a nation 
surrounded by democracy should not worry about its neighbors, 
and I think that is the case today with Russia. Those are all 
democracies, representative forms of government. And as NATO 
continues to enlarge, I don't think it poses a threat to any 
other nation anywhere. So we need to probably use that as a 
launching port for continued dialogue.
    Mr. Bartlett. That is our perception; I am not sure it is 
their perception. We need to remember that NATO was established 
to counter the Warsaw Pact; was it not?
    General Craddock. Indeed, it was an organization for 
collective defense against the Warsaw Pact. With the fall of 
the Soviet Union and the Warsaw Pact, it is now an Alliance for 
collective security. I think that there is, indeed, a 
difference there because security encompasses a wide range of 
threats to our interests.
    Mr. Bartlett. I have been to Russia a number of times. The 
first time was in 1973, when it was part of the Soviet Union. I 
kind of went as their guest. I was giving a paper at the 
Aeronautical and Cosmonautical Conference in Baku and 
Azerbaijan, a city and state that I had never heard of until 
they asked me to go there and I found it on the globe. And I 
have been there a number of times since.
    They are a very interesting mixture of Western and Oriental 
philosophies, and I think that face-saving is enormously more 
important than we think it is. And I very much appreciate your 
efforts for more closely working with them.
    Thank you very much, Mr. Chairman.
    The Chairman. Dr. Snyder, please.
    Dr. Snyder. Thank you very much, Mr. Chairman.
    General Craddock, I mentioned to the staff that I think 
Little Rock, Arkansas, is a sister city of Mons, Belgium--I 
don't know if that is still true or not. But that entitles you 
to a standing invitation to come to Little Rock and speak to us 
in French or something, I don't know. But I think that 
relationship still exists, and there is a pretty good number of 
Little Rock folks that have been to Mons and visited. It 
started with Wes Clark and being a Little Rock native.
    General Craddock. Thank you, Congressman. I will be sure to 
bring Mayor Di Rupo with me when we come.
    Dr. Snyder. That would be wonderful. That would be 
wonderful.
    I wanted to ask, you started out by introducing your State 
Department sidekick there, Ambassador. I am not used to this 
before this committee that someone with your job, you know, 
formally introduces the ambassador. Tell me how you see you 
all's relationship, how you see her role, and have you seen 
that as an evolving role over the last several years? Is there 
anything different?
    General Craddock. Thank you.
    Let me answer that based on my two years as Commander of 
Southern Command, where I had a policy advisor--three 
different, actually, during that time--and now in European 
Command. We are increasingly dependent upon the whole-of-
government approach to the issues that are faced today. For 
example, right now the policy advisor, there is a myriad of 
activities ongoing in State Department, some of which link into 
and don't link into very well the Department of Defense. And I 
depend upon the EUCOM Policy Advisor, Ambassador Canavan, and 
my Shape NATO Policy Advisor, Ambassador Butler, to be able to 
provide the linkage between the policy diplomatic developments 
and how they will impact, or not, what we are trying to do.
    We have got to stay tied in closely to chief submission. We 
have to know where they are, what they are thinking, how we can 
integrate into a country plan our efforts. And we also have to 
know the policy developments and the judgments being made, 
diplomatically and politically, in the State Department. So it 
is an essential task, and I value it very highly.
    Dr. Snyder. Admiral Keating, I have a specific question for 
you. India falls under your Area of Responsibility, and 
Pakistan is under CENTCOM. Given the tremendous importance of 
what goes on in the world and what goes on between India and 
Pakistan, does it ever lead to some lack of smoothness, the 
fact that they are divided and whose command they fall under? 
How do you all deal with that?
    Admiral Keating. Congressman, it is not a source of 
friction. I think it is more a solution than a problem for 
Central Command, their AOR, to extend to the India-Pakistan 
border from west to east, and ours to Pacific Command, to 
include India, as you state.
    I talk to Dave Petraeus with great regularity. I just met 
with Ambassador Holbrooke two or three days ago. Dave and I 
attended a meeting with the Indian Foreign Minister. Our J-5 
has gone with the Central Command J-5 to Islamabad, then they 
both went to Delhi. So we have constant cross-AOR dialogue, 
Congressman.
    I will go to India here in a couple of weeks. India remains 
one of our foremost strategic partners for military readiness, 
for geographical reasons, for diplomatic reasons, for economic 
reasons, and for energy reasons. So the boundary, such as it 
is, between Pakistan and India as it applies to Unified Command 
plan is very transparent, and I think is an advantage.
    Dr. Snyder. India's outgoing Ambassador to the United 
States visited Arkansas a month or so ago, and some of us had a 
series of meetings with a group of legislators from Pakistan. 
And it is very clear that ultimately they are all trying to get 
the same things for their people, which is good jobs, economic 
stability and security. And it seems like our relationships 
would be good ones.
    I wanted to ask General Craddock, as you continue 
discussion about the ambassador, do you see things in your area 
that if we were to have a more robust State Department budget 
and U.S. Agency for International Development (USAID) budget, 
do you see things that would better help America's foreign 
policy goals if we did the suggestions of both the previous 
administration and the current administration? Do you know any 
shortcomings?
    General Craddock. Thank you, Congressman.
    Yes, I do. Let me start with State Department.
    I think the Title XXII authorities for foreign military 
financing and IMET, International Military Education Training, 
increased funds for those programs would be quite helpful, 
particularly IMET. We get so great a return on that investment 
for this education training, bringing foreign officers and 
noncommissioned officers to the United States into our military 
institutions. We have seen a drop in that over the last three 
years. We need to hold the line and try to focus it. And where 
we want to sustain persistent engagement, we have got to do so 
in IMET.
    I think also USAID, where possible, particularly in 
Eurasia, and also in the Balkan area, where it is possible to 
focus on development, that would be quite helpful. So I think 
those authorities are there. The issue, obviously, is always 
funding. And we have a USAID representative in our staff 
element; great value, particularly for the disaster teams that 
they provide on quick notice. I would support in every way 
increases of resources for those authorities.
    Dr. Snyder. Thank you, Mr. Chairman.
    The Chairman. Randy Forbes, please.
    Mr. Forbes. I would like to first thank the Chair and the 
Ranking Member for having this hearing, and also share my 
appreciation for the service that all three of you have done 
over the years and your defense of our Nation.
    One of the things that bothers me is that we have a lot of 
wonderful men sitting at that desk, a lot of wonderful men and 
women sitting in this committee. But I am of the belief that, 
no matter what our intentions are, we have kind of painted 
ourselves into some holes.
    I just point out to the three of you, we heard General 
Sharp talk about an emerging China, but if we take just these 
last bailouts and stimulus bills that we passed, the interest 
that all of us will be paying until our children and 
grandchildren get old enough to maybe one day pay them off 
would cover the entire budgets for NASA, the National Science 
Foundation, the Department of Transportation, the FBI, the 
Department of Justice, the Army Corps of Engineers, the White 
House, Congress, and Homeland Security combined. That means at 
some point in time, whether it is next year or three years from 
now, when we come together with the best intentions, and we 
talk about robust budgets for the State Department or weapons 
systems or whatever else, we can have the greatest intentions, 
we are just not going to have the money to do it.
    So as we look, some of us feel we are virtually dependent 
on China to finance our economy, and, therefore, indirectly, 
our military. And I ask the question, how are we going to be 
able to afford some of the national defense items we will need 
in the future? I don't know the answer to that. But I think we 
must examine what we are going to be able to afford to build 
and to research, and to keep an eye on what China and some 
other nations are doing.
    And so, Admiral Keating, with your experience, if you had 
to look now at two or three of their weapons modernization 
programs that may have the greatest potential against our 
vessels, especially our carriers, what would they be that we 
should be keeping an eye on?
    Admiral Keating. Congressman, that is a great question. I 
would like to submit to you for the record some of the 
classified aspects of the answer. But writ large, we, as you 
know, are not able to conduct military-to-military dialogue 
with the Chinese now. They have suspended that aspect of our 
security relationship following the November Taiwan arms sales 
announcement. So we are looking forward to resumption of that 
dialogue so that we can engage in conversations with our 
colleagues in the People's Republic of China, their army, navy 
and air force, so as to develop a better sense of their way 
ahead.
    We don't have a clear idea of their broad strategic way 
ahead. We are watching carefully the development of certain 
weapons systems. We are watching carefully as their Navy 
deploys further and further from their shores. We are watching 
carefully as they begin to train in a more joint fashion and 
operate in a more joint fashion. So on an unclassified level is 
this issue of some concern to us. We want to resume dialogue 
with them so as to develop a better sense of understanding. I 
would be happy to give you a memorandum for the record that 
addresses particular aspects of certain weapon programs and 
systems they are developing, issues that are of particular 
concern to us.
    Mr. Forbes. If you could do that at some particular point 
in time in a different setting.
    Also, if you could let us know what progress you see that 
they have made in terms of medium-range ballistic missiles and 
the impact that they might have on our carriers.
    And then one other questions--and you may need to address 
this in a different setting as well. But the Ranking Member, I 
believe, asked a question about the Impeccable, and your 
comment concerned me a little bit when you said that there was 
nothing we would do different, that everybody was equipped 
properly.
    I would just ask--if you can't address that here, perhaps 
address that somewhere else, because that was not my 
understanding, that there were things that we may be doing 
differently. So I leave that out for you to perhaps--whatever 
you can comment on here, or perhaps maybe that you could give 
us in a different setting, perhaps, that we could get our arms 
around that a little bit better.
    Admiral Keating. Yes, sir. The tactical particulars are 
better left in a response to you in a classified manner. And I 
believe I am aware of the brief that you are mentioning, 
Congressman, so we will give you a detailed point paper that 
outlines where we were that evening when I got the phone call, 
and changes that we have made at a tactical level to address 
the issue you raised.
    Mr. Forbes. Mr. Chairman, I yield back.
    The Chairman. Mrs. Davis, please.
    Mrs. Davis. Thank you, Mr. Chairman. And thank you to all 
of you for your extraordinary service. We appreciate your being 
here.
    I wonder if I could just turn first to General Sharp, and 
thinking about walking through the situation in South Korea for 
our families. You mention how important that is that you are 
looking at three-year tours with family accompaniment. Where 
are we in that, and what do you need? And do you think that you 
are being provided with the necessary resources to fully 
complement that strategy?
    General Sharp. Yes, ma'am. Thanks for the question.
    We currently have about 2,100 what we call command-
sponsored families, those that the government has authorized 
and is in Korea right now, 2,100. We have approximately 1,900 
other families that have come to Korea to be with their 
servicemember for the one-year tour that they are on, basically 
saying Korea is safe, I am not going to spend another year 
separated from my family member.
    General Bell, when he was the Commander, did exactly the 
right thing. Those 1,900 do get some money to be able to live 
off post as far as housing allowance and get some medical care, 
but it is not what it should be. It should be that they can be 
command sponsored.
    In the beginning of December, the Secretary of Defense 
authorized us to move towards three-year accompanied tours. The 
Joint Federal Travel Regulation, which is the regulation that 
governs this, was just signed the beginning of March, which 
allows us to be able to move to--in locations where we have 
good services--to be able to move to three-year accompanied 
tours for all the servicemembers, and, in areas especially up 
north where Second Infantry Division is north of Seoul, to move 
to two-year accompanied tours.
    Now, we are going to do this the right way. I am not going 
to bring more families over than our infrastructure can handle. 
Our goal for about a year from now is to go from those 2,100 
command-sponsored families to about 4,500. And I have the 
infrastructure throughout Korea to be able to handle that.
    As we build up towards 2015 and 2016 and the completion of 
the new base or the completion of the Base Camp Humphreys, we 
should be able to get to about 5,700 command-sponsored 
families, and then work all the way through our goal to 14,000, 
which will be the general end state.
    We are progressing along to be able to have, I am very 
confident, as far as the housing for these families because of 
the housing initiatives that the Army has started at Camp 
Humphreys that we will be able to utilize throughout Korea. The 
medical, we are in pretty good shape.
    The schools are the issue that we are really working 
through right now and figuring out how to get the number of 
schools so that we can get to the endstate. We have enough 
programs to get to the middle point of about 6,000 command-
sponsored by 2014, 2015. It is the additional schools beyond 
that that we are working a combination of burden-sharing money, 
of U.S. military construction (MILCON) money, and public-
private ventures in order to be able to get to that.
    I just want to say that command sponsorship is very 
important for us because it really adds to my capability, it 
reduces stress on our military over there, and it really shows 
our commitment, too--very, very important to Korea, and to 
Northeast Asia in general.
    Mrs. Davis. I appreciate that. And perhaps you can join in 
on this question as well.
    Just assessing the public opinion in your AOR and the 
extent to which the work--I think you obviously identified some 
partners in the area, but the extent to which you feel that the 
commands are able to assess and really act on the shifts and 
changes in public opinion that you experienced there, how are 
you doing that? How do you maintain that connection? And are 
you seeing an ongoing partner always in your area?
    General Sharp. I will just start, if I can.
    The Republic of Korea is a great alliance. It has been 
there for over 50 years. They want us in Korea. They greatly 
support our troops and our families. And that is why I am so 
confident as we move towards these three-year accompaniment 
tours. Our popularity has consistently been in the 60s and 70 
percent of wanting the U.S. military to stay in Korea and to 
absolutely strengthen this alliance. So from the Korea 
perspective, it is a strong alliance. And I am confident that 
it will continue to be even stronger in the future.
    Admiral Keating. In the two years we have been privileged 
to command, Congresswoman, we have been to 28-something 
countries in our Area of Responsibility. And in each of those 
countries, to a varying degree to be sure, but in each of those 
countries, an unmistakable theme of conversations--not just 
military to military, but, as John mentioned, it is an 
intergovernmental approach. We are regarded, the United States, 
not just Pacific Command, as the indispensable partner.
    So our presence there is appreciated. Folks want us to be 
nearby, if not right in their country. And everywhere we go, 
that is an unmistakable theme; we are an indispensable partner.
    General Craddock. If I may just add on to that. I would 
agree. We have obviously been in Europe a long time with 
significant numbers. That has drawn down over the years. My 
first tour in 1972, we had about 380,000 servicemembers; now we 
are down to 84,000. But everywhere I go, in Germany, Belgium, 
Netherlands, United Kingdom, Italy, they still, by and large, 
want us there at the local level. We are welcomed. There are 
strong bonds of friendship and support.
    Occasionally, as we saw here earlier, in Italy, there are 
some dissidents who think that there are problems there, and 
there are environmental issues that, in fact, the government 
says, not the case, it is being worked out.
    So I think the general notion is we won't stay if we are 
not wanted. And right now, I think we are, indeed, wanted 
throughout at least the EUCOM Area of Responsibility.
    Mrs. Davis. Thank you.
    The Chairman. I thank the gentlelady.
    Following through on that, General Craddock, with 84,000 of 
our service personnel in your command at the present time, what 
would be the effect of a drawdown from that number that has 
been proposed?
    General Craddock. I thank the chairman. If we take the 
assumption, and we must, that whatever forces are in Europe are 
still going to be a part of the global force provisioning 
process; in other words, I send forces, all my forces, Army, 
Navy, Air Force, Marine, to Iraq, Afghanistan, wherever the 
contingency arises, a drawdown from four land brigades to two, 
a drawdown in numbers of fighter squadrons would mean that 
there will be engagement, less partner Nation capacity and 
capacity will be generated, exercises will go unfunded and 
unmet, and we will essentially become absent in the theater 
where we have been so present before. Our leadership in NATO 
has been, I think, a key steadfast quality there, and we will 
lose that to a great extent because there will just not be 
presence by U.S. forces.
    The Chairman. Are you telling us that a drawdown from 
84,000 will cause us to have less ability to be leader, at 
least in NATO and Europe.
    General Craddock. Mr. Chairman, that is my assessment. It 
will indeed, I believe, endanger our leadership, which is firm 
and sound now. And also we will not be able to engage with 
nations to increase capacity, whether they are NATO members or 
partners, the NATO want-to-be's, which is critical now, because 
that is what built their capacity and capability and it has 
allowed them to join us in these contingency operations.
    The Chairman. Is that your recommendation.
    General Craddock. My recommendation would be to not draw 
down the force levels any further from what they are today.
    The Chairman. Thank you.
    Mr. McHugh. Will the gentleman yield?
    The Chairman. Yes.
    Mr. McHugh. Thank you. Mr. Chairman, you raise an excellent 
point, I am encouraged by General Craddock's response. Let me 
just add another component to it and, General, I know this 
doesn't directly relate to your EUCOM hat, but would it be your 
judgment it might also diminish our position vis-a-vis the 
economies and our economic strategy whether it be in Europe or 
globally as well? A decrease in military presence means 
decreased American presence, would that be fair?
    General Craddock. Congressman, I think that is a fair 
statement. Indeed, where we are in these nations, in these 
communities, we provide substantial economic impacts now. If we 
are not there, then that will be, I think, a significant 
difference in the investment we make, whether it is through 
contracts or housing and things like that, the monies our 
people spend on the economy of those nations. So I think there 
will be some impact.
    Mr. McHugh. If I may, General, I am really thinking about 
the way in which the way the Europeans view American presence 
as also beyond the military, meaning we are economic leaders on 
a world stage?
    General Craddock. I don't know that the withdrawal or 
reduction of American forces will impact upon the commercial 
activities of U.S. investment and presence. It may well be the 
case. It is not a security issue. So it is a matter of return 
on investment, I think, in terms of its commercial aspect.
    Mr. McHugh. Thank you, General. Thank you, Mr. Chairman.
    The Chairman. Mr. Hunter.
    Mr. Hunter. Thank you, Mr. Chairman. Thank you, gentlemen, 
for being here and thanks for your leadership right now in 
these troubled times.
    General Craddock, when it comes to Georgia and the Ukraine, 
how do you view admitting these emerging democracies into NATO 
when on one hand if they get attacked it draws us into war, but 
on the other hand, if they are part of the NATO, our presence 
is a deterrent to war; how do you view that?
    General Craddock. Thank you, Congressman. At the last 
summit the NATO declaration as a result said that the Ukraine 
and Georgia would be members of NATO. They were not given 
membership action plans, which is the standard process that 
nations must go through to reform their security sector and 
other governmental processes and regulations, but there is a 
statement made they were members. So now between the NATO 
Ukraine Commission and the NATO Georgia Commission there is in 
development a road map, if you will, for that process to bring 
those nations into NATO.
    From my perspective, I have to assess the security sector 
and the military capacities and capability. I think that I 
would say that all nations start off in a process far from the 
standard at which they would be admitted. It is a long road. 
The two invitees that will be, I think, admitted to NATO as 
full members here shortly at the summit, Croatia and Albania, 
have been in for eight and nine years in that process.
    So again, there will be a new construct or road map, and I 
am ready to use the NATO military opportunities to be able to 
work with those nations.
    Now, with regard to bringing them in and Article 5, again 
the call for is a national decision, the decision by the North 
Atlantic Council to commit to is a political decision, I think 
that again as members they would all be entitled to the same 
protection. So that will have to be a judgment made by the 
political masters, the North Atlantic Council.
    Mr. Hunter. How do you see it? Do you see it more as a 
deterrent or do you see it making it worse for us in these 
political cases with your military seat?
    General Craddock. If those nations are ready and are 
requested and they are providers of security, not consumers of 
security, I don't see it as a downside. On the other hand, I 
think it will be some time before that situation is reached, 
and I think there will be changing conditions and there will be 
new relations with neighbors of theirs and bilaterally and 
multilaterally. So I don't know that I can make a judgment that 
concisely of the future.
    But again, democracies, representative governments are not 
a threat to other nations.
    Mr. Hunter. Thank you, General. And when it comes to Russia 
I have been hearing that the drug use and drugs coming up to 
the southern satellite states through all the different stands 
from Afghanistan into Russia and radical Islam in Russia is 
pushing them towards kind of a semblance of cooperation with us 
right now. Is that true?
    General Craddock. Good question. Indeed, that is the case 
along with the counterdrug issues, the trafficking issues. The 
flow of heroin up from Afghanistan through the neighboring, the 
stands if you will, the northern countries that border on 
Afghanistan through Russia into Europe is significant. Much of 
that trafficking, the drugs stay in Russia. It is causing an 
increase in addictions, it is causing criminality. The rates of 
crime are up. The Russians are concerned. They have provided 
some counternarcotic training to the Afghans for some time. We 
are appreciative of that, and I think that they want to 
continue to work to try to limit the flow of those drugs 
through their country.
    Mr. Hunter. And radical Islam?
    General Craddock. I cannot comment on that. I have not 
talked with the Russians about that to the extent I have with 
the counternarcotics so I am not in position. I can provide 
that to you for the record, if you wish.
    [The information referred to was not available at the time 
of printing.]
    Mr. Hunter. That would be great. I yield back the balance 
of my time.
    The Chairman. Mr. Larsen.
    Mr. Larsen. General Craddock, the first question for you, 
in your testimony you said that with regard to missile defense 
our combined efforts to keep the U.S. And NATO collective 
security closely linked by providing all members of alliance 
with defense against a full range of missile threats, 
presumably meaning U.S. is focusing on long-range defense while 
NATO systems are directed to handle shorter range threats. In 
fact, does NATO have a capability package or are they actually 
moving towards some sort of capability to address any short or 
medium range threat, I think it is a concern around here that 
they are not or it is not.
    General Craddock. Thank you, Congressman. Well, indeed, 
NATO does have a program, albeit it is not moving very fast, 
but it is an alternate layered theater ballistic missile 
defense, ALTBMD, and the notion of that is that it will be a 
layered construct from short range low layer to mid range 
higher layer. And that conceptually then that would integrate 
in with the U.S. European capability third site for the long 
range. So we would have an holistic approach for short southern 
shoulder of NATO, intermediate a little farther into the 
continent, and then that would tie into it a command and 
control integration with the U.S. third site.
    Mr. Larsen. I guess the gist of my question you probably 
guess this is it probably exists more on paper, it seems, more 
than moving towards reality. Can you give an assessment of 
that?
    General Craddock. Right now it is not a reality. It is a 
concept that has got some NATO money against it to develop a 
command and control integrated system first. But the assets are 
all national assets, whether they be Patriot or whether they be 
U.S. Aegis in the region. So there is no----
    Mr. Larsen. No NATO asset?
    General Craddock. Well, no NATO assets. The NATO asset we 
would impose on that would be the integrated command and 
control system which national assets, Patriots and others, 
would plug into.
    Mr. Larsen. Can you--and perhaps this is a different way of 
looking at--what are EUCOM's shortfalls in the area of missile 
defense to date?
    General Craddock. Well, we only have in EUCOM Patriot 
short-range capability. We have on a rotating presence and 
eastern Med Aegis presence for the Aegis radar to be able to 
discriminate and identify. So right now that is pretty much the 
extent of what we have got.
    Beyond that, I would have to provide it to you, if I could, 
in a classified form for the record.
    [The information referred to is classified and retained in 
the committee files.]
    Mr. Larsen. Sure, and if you would do that, I would 
appreciate it.
    General Sharp, I would just ask my good colleague from 
Pennsylvania to move to his left. Thanks, Joe.
    You mentioned a couple of things. The Republic of Korea, we 
elevated them to the NATO plus five status for Foreign Military 
Sales (FMS). You discussed the three-year tours for families. 
The two other elements I think that your predecessor discussed 
with us, one was freezing the drawdown at 28-5 and the other 
was wartime operational control moving toward that in 2012. Can 
you give us an assessment? It is in your testimony, but 
verbally can you give us an assessment of where we are with 
transition of wartime operational control, what challenges we 
may face to get there?
    General Sharp. And on the 28-5 I do think that is about the 
right number, it is what Secretary Gates has committed to, and 
I believe that as we move into the Quadrennial Defense Review 
28-5 will remain about the number and we will look at the 
capabilities that we need as the Republic of Korea military 
changes their capabilities, but well passed OPCON transfer I 
think 28-5 is about the right number for this important part of 
the world. OPCON transfer is coming along really very well, and 
the bottom line is we are on schedule for 17 April 2012.
    We conducted an exercise, Ulchi-Freedom Guardian, last 
August where the Republic of Korea stood up the command and 
control structure and organizations they will have after OPCON 
transfer. So the Chairman, Chairman Kim stood up at 
headquarters where he commanded the warfight from. We stood up 
as supporting headquarters. The components, Army, Navy, Air 
Force, and Marines, stood up what they will have after 2012, 
and they really did a good job. I have stood up headquarters 
and deployed to places like Bosnia and into Haiti. It is not an 
easy job, but they did a good job.
    We are working closely with the ROK Chairman and his staff 
on a whole set of tasks that have milestones that we will look 
at and certify, yet we have got this capability as we move 
forward between now and 2012. A whole set of exercises, a whole 
set of initiatives that we have in order to be able to make 
sure that we are ready for OPCON transfer. It is the right 
thing to do. The Republic of Korea military is extremely 
professional, and I am absolutely confident that in the 
supporting role that we will end up with after OPCON transfer 
it is the right thing for the alliance.
    Mr. Larsen. Thank you. Mr. Chairman, all three questions 
for the record for Admiral Keating as well.
    The Chairman. Thank you very much. Admiral Keating, before 
I call on Mr. Coffman. Admiral Keating, the proposal of moving 
8,000 Marines from Okinawa to Guam, will there at some point be 
a fully thought out and recommended plan for that effort?
    Admiral Keating. I think it is reasonable to assume that I 
would predict that there will be significant development of the 
existing plan, Chairman, and it may serve to be satisfactory to 
your particular question. I know there are folks who are 
working hard on the current plan. There is, as you know, the 
Joint Guam Program Office in the Department of Navy. I think 
likely there will be expanded interest in this topic and we 
will remain committed to executing a plan as it develops by 
2014.
    The Chairman. The reason I ask, there is a proposal to 
receive some money for this and a pretty large figure this 
year. And we want to get this right. There is no second chance 
in doing it. That is why I am hopeful that when the final 
product comes over it will have the stamp of approval by the 
Congress of the United States because we do have to pay for it. 
And I just hope that the devil is always in the details, those 
details can be thought out before a great deal of money is sunk 
into that.
    Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman.
    General Sharp, can you review again your estimate of the 
North Koreans in terms of the stability of regime? It does seem 
like every time they engage in missile testing of any type it 
is to acquire foreign aid to sustain their failed economy. What 
is your view of the current situation right now in North Korea?
    General Sharp. That Kim Jong-il is in control. He will 
resort to many different types of provocations to try to ensure 
regime survival within North Korea, to include, as he has said 
that he is going to do between the 4th and 8th of April, to go 
against the U.N. Security Council resolution and launch the TD-
2. Regime survival is his number one and to a degree his only 
concern, and I believe he will go to any length to be able to 
try to ensure that.
    Mr. Coffman. How would you assess our abilities in terms of 
missile defense? They seem to be testing longer range systems. 
What is our ability in terms of deterring them?
    General Sharp. In my AOR in south Korea it is mainly the 
shorter range ballistic missiles, the type of defense that we 
have with Patriots, that Koreans have recently bought Patriots, 
they are installing now. We of course have Patriots that we are 
well defended around, specifically the areas that we need if we 
had to go to war. As far as the longer range ones, I would 
defer those to either missile defense or the people who are 
experts in what we are developing for our national ballistic 
missile defense.
    Mr. Coffman. Thank you.
    General Craddock, how would you define right now the 
aspirations of the Russians? It seems to me that they want to 
essentially--they see within their sphere of influence a number 
of former satellite states of the Soviet Union and it seems 
that they want to bring them back into that sphere of 
influence.
    General Craddock. Thank you, Congressman. I tend to agree 
with your assessment. I think that what we are seeing here is--
some would call it resurgent, I kind of call it a risen Russia 
that over the past few years has benefited immensely from the 
high price of oil, filled up their foreign exchange coffers, 
now is seeing some of that with the price fall be used up to 
support other requirements there inside the country.
    I think that they call it the near abroad, which is a term 
not well received obviously by the former nations of Soviet 
Union. They want that sphere of influence to remain. They want 
to be involved in the politics, the decisions in those nations, 
so it causes an angst and some tension.
    The situation in Georgia last August aggravated that, it 
has caused a matter of concern among nations that border the 
Russian Federation of potential intentions for the future. So I 
think that from that aspect it has caused in the alliance, in 
the NATO alliance, some concern as to what the future holds and 
what NATO will provide as guarantees.
    We obviously bilaterally have had a break in our mil-to-mil 
relations, and we are standing by as political aspects develop 
to see where that leads us. But it may well be a stretching or 
posing, if you will, on the part of the Russians here over the 
last couple of years. That may be at the end right now given 
other factors in the worldwide economic situation and the price 
of energy.
    Mr. Coffman. Thank you. Admiral Keating, what flash points 
in PACOM's AOR concern you the most?
    Admiral Keating. There are a couple, Congressman. We talked 
a little bit earlier about violence extremism throughout our 
AOR. There has been significant progress in our view made by 
partners and allies of ours, including Indonesia, Philippines, 
Singapore. Australia does a good job helping us watch very 
carefully the flow of personnel support through the southern 
Pacific regions.
    China's behavior of late has gotten a little bit of our 
attention. Balance what they did in the South China Sea with a 
fairly good job they are doing in their anti-piracy operations 
with now 15 other nations in the Gulf of Aden. So their 
strategy is not clear to us. We are looking forward to 
resumption of military-to-military (mil-to-mil) dialogue.
    And in Skip's backyard, what North Korea is about, not just 
the Taepodong missile but somewhat erratic behavior, including 
border access and closure of international air space.
    Those areas would be of more concern to us than others, 
sir.
    Mr. Coffman. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Admiral Keating, you mentioned you are looking forward to 
the assumption of military-to-military dialogue with the 
country of China. Would you tell us the status of that or can 
you enlarge upon that at all, sir?
    Admiral Keating. China suspended mil-to-mil dialogue 
following the announcement of our recent series of arms sales 
to Taiwan. We have not resumed that mil-to-mil dialogue. 
Secretary Clinton mentioned it while she was in China. I have 
used that as a topic of concern in various conversations. So 
our Department of State and Department of Defense and I believe 
the President himself, they have all included this in a series 
of discussions with their Chinese colleagues. So I know the 
discussions are ongoing, Chairman. As yet, I am not officially 
allowed to engage in dialogue with the Chinese.
    The Chairman. Thank you. Mr. Kissell.
    Mr. Kissell. Thank you, Mr. Chairman, and I believe Mr. 
Coffman and I were on the same wavelength. I am going to follow 
up a little bit on the questions he asked.
    Admiral Keating, beyond the China, Japan, India, North 
Korea aspect, are there any countries radically changing one 
way or the other below the radar that we are not hearing about?
    Admiral Keating. Congressman, I would not say there are any 
changing radically. It is interesting to note perhaps that 
there are elections that have been held in half a dozen 
countries in our area of responsibility, and there will be 
another four or six countries, including India, perhaps Japan 
soon, Malaysia. These countries all are embracing democracy in 
ways that are reassuring to us, gratifying to us, and I think 
are at least of significant interest to us. But writ large, the 
kind of bumper sticker we use is the guns are relatively silent 
all throughout the Asia Pacific region, and for that we are 
grateful.
    Mr. Kissell. Thank you. General Craddock, following up on 
Russia, one quick question, the movement and interest into 
their former countries now that were part of the Soviet Union, 
do you think that Russia's interest there is more 
imperialistic, yearning for the days of old, or more defensive, 
kind of wanting that buffer zone around them?
    General Craddock. Thank you, sir. I think it is probably 
something in between. I don't think it is imperialistic, but I 
think they want to retain a strong sphere of influence with 
those nations. And some of which have a stronger relationship 
because of economic residuals, political or even demographic, 
such as Latvia, which is about 50 percent ethnic Russian.
    So I think that it could be a buffer, but again when we 
look at a buffer against what, the democracies of those nations 
and the democracies around those border nations? I guess what 
you see depends on where you stand. But I think it is to retain 
a sphere of influence, which gives them status and gives them 
what they may feel--and I don't know this, this is my 
judgment--that they lost over the years from the days of the 
Soviet Union. So there are indeed various linkages back into 
those nations, some stronger than others.
    Mr. Kissell. The BBC reported last week that the President 
of Russia announced $140 billion expenditures over the next 
couple of years to build up Russia's military, especially in 
areas of strategic nuclear forces. Where do you see this 
changing Russia's military presence against the areas of our 
interest and how do we respond?
    General Craddock. Well, I think we have already seen in the 
last couple of years some changing military presence by the 
Russian forces. We started seeing it with the strategic bomber 
flights over both the North Atlantic and the polar caps in the 
Pacific, which hadn't happened in years. So they came out. Why? 
Because they made some investments in that force in terms of 
readiness and training to get the crews up flying. So that was 
something that we saw for the first time.
    Maritime force, we have now seen the second or third time 
over the past 2 or 3 years a carrier task group move out. We 
have seen it in the Mediterranean and now for the second time 
it just departed. We have seen it head towards the Caribbean in 
training activities with the Venezuelans.
    So we have seen the results, the manifestation of 
investments there. Investment in the nuclear force is harder to 
determine. Basically we can see it in delivery systems, not 
necessarily in warheads.
    What the announcement was actually, as we understand it 
based upon our assessment and study, was really a delay from 
the original objectives and the timelines for the investments. 
So it is the same programs going to be delayed by a year or two 
we think due to the downturn in the economic situation. Not a 
surprise in what they are going to do, a surprise in when they 
are going to do it.
    We have discussed with them, when you are moving your 
carrier task groups out, can we exercise, can we engage. We did 
this before the cessation of mil-to-mil, both bilaterally U.S.-
Russia and NATO-Russia, and have not gotten a response. So we 
are looking for opportunities and hope to have those in the 
future.
    Mr. Kissell. Thank you, sir. We appreciate what you all do 
for us. Thank you, Mr. Chairman.
    The Chairman. Thank you. Mr. Wittman, please.
    Mr. Wittman. Thank you, Mr. Chairman. Gentlemen, thank you 
for joining us today and thank you for your service to our 
country.
    Admiral Keating, looking at the environment we have around 
us and the changing and emerging threats having to deal with 
missiles, can you tell us a little bit about PACOM's ability 
with respect to missile defense and if you think that 
capability is up to task with the known threats today and maybe 
the emerging threats and, if there are shortcomings, what those 
might be and where the challenges lie ahead?
    Admiral Keating. Congressman, we are up to task, I believe. 
We are ready to defend U.S. territory, our allies, and our 
national interests as the President so directs. We are 
monitoring all the international threats as closely as we can, 
and we are prepared when directed to respond to those crises 
whenever and wherever they occur.
    We are working closely with Japan, as they have fielded a 
defense capability of their own in the form of their Aegis 
destroyer. John Craddock mentioned them earlier in his theater. 
So, too, does Japan have them. They have demonstrated their 
capability recently in a test in waters north of Hawaii.
    So across the spectrum we have concerns with missile 
activities in North Korea, as Skip mentioned earlier, but I 
know we are ready to defend our territory and our allies.
    Mr. Wittman. Thank you, Admiral. A little bit about space 
assets, based on the post-Chinese ASAT test experience do you 
believe PACOM has sufficient space assets based on some of 
these emerging issues that we see?
    Admiral Keating. Congressman, we have sufficient, but we 
are a little lean in some areas, if you would, and we are 
working with General Chilton and the United States Strategic 
Command (USSTRATCOM) to fortify several of those areas where we 
might be a little weaker than others. The technical answer 
would be better given to you in an off the record, but 
classified statement, sir.
    Mr. Wittman. Thanks, Admiral. How is the growth of regional 
associations in the Asia-Pacific area challenging the U.S. role 
on security issues and altering U.S. bilateral security 
relations in that region? And if there are those issues, what 
might PACOM be doing to address that?
    Admiral Keating. It is a fertile field, I think, 
Congressman. Our policy of partnership and presence lends 
itself to application across a fairly broad spectrum of 
engagement opportunities, of dialogue, enriched and expanding. 
It has been said that there is no country or agency so big that 
they can do it alone in the Pacific, nor is there any agency or 
country so small that they can't make a significant 
contribution.
    The Republic of Tonga, a very small Pacific Nation, has 
provided troops for the defense of bases in Iraq for almost 3 
years. Mongolia has helped us in ways, big and small. Many of 
our allies and partners are contributing resources and 
personnel in the Iraqi and Afghani areas.
    So it is a great opportunity for us. There are occasional 
challenges to be sure, but writ large there are terrific 
opportunities for us in our strategy in concert with the State 
Department, Commerce, Labor, Energy and all the Federal 
Government and increasingly the private sector. Several 
prominent businessmen are coming to Hawaii just next week to 
discuss how they might help us capitalize on the opportunities 
that are ahead of us. So it is an area that we think is right 
for exploration and potential.
    Mr. Wittman. Very good. Thank you, Mr. Chairman. I yield 
the balance of my time.
    The Chairman. I thank the gentleman. Ms. Bordallo, please.
    Ms. Bordallo. Mr. Chairman, thank you and thank you for 
your concern about Guam and wanting the buildup to proceed in 
the right way.
    General Craddock, General Sharp, and Admiral Keating, I 
want to thank you for your testimony this afternoon. Admiral 
Keating, Hafa Adai.
    Admiral Keating. Hafa Adai.
    Ms. Bordallo. And thank you for your continued leadership 
and your support for Guam.
    I have several questions for you, Admiral. You mentioned 
that one of the major challenges facing the buildup is the 
capacity of local infrastructure. How is DOD, specifically 
Pacific Command, working with local officials, the Joint Guam 
Program Office, to address these concerns? I am interested in 
understanding what processes might have been entertained in the 
DOD to see if these local infrastructure projects could have 
been addressed in the stimulus bill. Did the Department miss an 
opportunity to address these problems by not having something 
placed in the stimulus bill?
    Admiral Keating. I think, Congresswoman, the shortest 
answer I can give you is I don't know whether or not the 
Department missed an opportunity. I will check with our friends 
in the Joint Program Office. I would be very surprised if they 
had intentionally overlooked or passed on an opportunity, but I 
will check with them and find out for you.
    [The information referred to was not available at the time 
of printing.]
    Ms. Bordallo. Thank you, Admiral.
    Also, Admiral, the people on Guam are concerned about the 
recent news that North Korea has a weapon, the Taepodong-2 
missile, that can apparently reach parts of the United States 
and Guam. Some are concerned that future missile tests may be 
targeted in such a fashion as to prompt a response from the 
United States. What action from the U.S. military can we expect 
if such a missile test were targeting a U.S. Territory like 
Guam or Alaska? And also what capabilities does a missile 
defense system on Guam provide our armed services in the 
Pacific AOR?
    Admiral Keating. Congresswoman, I will need to give you an 
answer to that, certain parts of your question, in a classified 
response. But writ large, as I said earlier, we are ready to 
defend the United States, its Territories, and its assets. 
Specifics attendant to Guam and Alaska I will have to send you 
in a classified response. But be assured we are well aware of 
our responsibilities all throughout the Pacific region, and in 
concert with General Renuart of the United States Northern 
Command, General Chilton at United States Strategic Command, we 
are prepared to execute our responsibilities.
    Ms. Bordallo. This is a concern for the people of Guam.
    Admiral Keating. It is ours, too.
    Ms. Bordallo. My final question, the Marine training 
requirements on Guam and in the Commonwealth of the Northern 
Mariana Islands was an issue discussed in the September 2008 
Government Accountability report. What is the rationale for why 
the Mariana Islands range complex environmental impact 
statement (EIS) did not investigate the requirement for 
increased training by Marines in the region. I have a concern 
that if this issue of training requirements is not addressed in 
a timely manner, it may complicate the environmental impact 
statement process on Guam.
    Admiral Keating. The terms of agreement for the 
environmental impact statement as conducted were a Department 
of Navy issue. Congresswoman, as you know, we share your 
concern for providing appropriate training venues, 
opportunities, and areas for any forces that are stationed in 
and around Guam. As you know you and I have discussed, I have 
had the great pleasure of doing an awful lot of flying in and 
around Guam. So I can attest firsthand to the merits of the 
Guam training area writ large, and in our view it will over 
time must expand to include areas to the north of Guam. So the 
environmental impact statement as it is currently being 
conducted, it is our hope that in time will be expanded to 
include other areas that would provide better training for any 
and all forces that would use Guam as we intend to use it.
    Ms. Bordallo. My concern, Admiral, is by not going along 
with the EIS in the Northern Marianas that this may be a 
detriment to our EIS study for Guam, and I hope that doesn't 
happen.
    Admiral Keating. So do we.
    Ms. Bordallo. Thank you very much. Thank you, Mr. Chairman.
    The Chairman. I thank the gentlelady. Mr. Sestak, please.
    Mr. Sestak. Thank you, Mr. Chairman. General Sharp, the 
Quadrennial Defense Review will come over here sometime next 
year. Over the last four years we have not had any Army 
divisions or brigades that could meet the requirements of the 
5,000 series of operating plans (OP plans) for the defense of 
South Korea. The Chairman of the Joint Chiefs of Staff said it 
was an acceptable risk. So as we sit here in our jobs as dolers 
out of the national treasure for what is needed in the future, 
from 1953 until about four or five years ago the force posture 
of the Army was based upon primarily in the last 15, 20, 30 
years of two major conflicts, East and West.
    We have had acceptable risk now for quite some period of 
time, but not having to have anybody need it from the Army. So 
should we look askance at the Quadrennial Defense Review coming 
forward and saying we need X amount of Army and part of the 
justification is to meet the requirements that have not needed 
to be met the last four years for the defense of South Korea by 
the Army?
    General Sharp. Thank you for the question. Let me first say 
that I am absolutely confident if North Korea were to attack 
today we, the Republic of Korea-U.S. alliance would be 
victorious and we would be able to execute our war plan, 5027.
    Mr. Sestak. Sir, that is not my question. My question has 
to do with if they come over and ask for these forces to meet 
the requirements of 5057.
    General Sharp. I believe that still is a requirement.
    Mr. Sestak. So even though we haven't needed this Army 
requirement, we haven't had it for the last four or five years 
in testimony here, we still should justify pouring money into 
the Army for that requirement in the future?
    General Sharp. There are many requirements around and I 
believe that the ability to be able to execute a war plan in 
Korea for the defense of the Republic of Korea still is a valid 
requirement. And I will also say that we do have the forces.
    Mr. Sestak. Having the Army.
    General Sharp. We do have the forces in the Army to be able 
to do it. The Chairman has said in the past it would take 
longer and we would have to mobilize, but we would be able to 
go over and to be able to, from an Army perspective, do what we 
need to do according to the war plan.
    Keep in mind that the Republic of Korea military, 
especially their army, is set up very well in the defense for 
the initial part of the conflict. Now, without getting into 
classified what the Army is really needed for is for later 
parts of the conflict.
    Mr. Sestak. Would that mean the active would be placed in 
the reserves then or National Guard, since the requirement is a 
delayed requirement?
    General Sharp. It is not a delayed requirement. What we 
have right now is because of the forces that we have in Iraq 
and Afghanistan, in order to be able to get those forces to 
Korea, there is still that requirement, and we still have that 
capability to be able to do that----
    Mr. Sestak. Thank you.
    General Sharp [continuing]. And that we would win.
    Mr. Sestak. General, ballistic missile defense (BMD) in 
Europe, there have been some studies that have come out 
recently from Institute for Defense Analyses, CDO Technologies, 
Inc. The little bit of knowledge I have when they looked at the 
various systems, in particular one of the two, the one that is 
in Czech Republic and Poland, is that this is going to give 
us--let me just characterize it as minimal capability. But it 
does say that the Aegis capability, which is already a sunk 
cost, gives you an equivalent capability. Recently there have 
been reports--and by the way, we wouldn't have to do this if 
Iran was not pursuing a nuclear--we have justified this because 
of Iran.
    So is there due gist in saying, well, wait a moment here. 
These recent reports that have said, let's kind of work with 
Russia to work on Iran and this ballistic missile defense 
system, maybe we remove let's just say the shooter in Poland, 
but we still have the great capability on the our Aegis ships, 
it is already a sunk cost. Again, as we look at our national 
treasure, the Quadrennial Defense Review comes over, in one 
case having a war plan to meet without ready forces. Over here 
we have a ballistic missile defense system where we have the 
same capability on the Aegis systems we have sunk our cost in. 
Is it worth therefore seeing that we can salvage even more 
resources by pursuing that means rather than staying the road 
with the Czech and Polish, not--we need the expand radar but 
doing away from with the shooter in Poland and letting the 
Aegis ships pick up that capability.
    General Craddock. Thank you, Congressman, a very complex 
question and I quite frankly am not qualified to answer the 
physics of that. The first issue is, is there a threat? And to 
date the Intelligence Community and NATO has affirmed there is 
a threat. That was recently affirmed by the foreign ministers, 
the 3rd of December, 2008, when they said they felt that that 
U.S. effort would be helpful in a significant way to Europe.
    Now, the ability for an Aegis ship to engage a long-range 
ballistic missile depends upon where it is, missile launch, 
angle of flight.
    Mr. Sestak. Those studies have said that the two 
capabilities are absolutely equivalent.
    General Craddock. I am not aware of that, and I would yield 
to your expertise. So I think I would have to defer your 
questions of the technical aspect to the Missile Defense 
Agency.
    Mr. Sestak. I am more interested in----
    General Craddock. Let me finish, sir. If there were 
opportunities that the threat would be mitigated or eliminated 
by nonmilitary means, read informational, economic, political 
diplomatic, that is fine. My task is to secure U.S. forces and 
U.S. interests. And if the threat is not there, then I would 
say good for us.
    The Chairman. I thank the gentleman. We will have a second 
round in just a moment.
    Mr. McHugh.
    Mr. McHugh. Thank you, Mr. Chairman. General Craddock, you 
were commenting earlier with respect to Title 22 funding and 
International Military Education and Training (IMET) and other 
programs that are helpful and effective in capacity building 
amongst our partners in European theater.
    What about 1206 funding? Do you view that as a viable means 
by which we can expand our support and build the capacities of 
our partners as well?
    General Craddock. Thank you, Congressman. I absolutely do. 
I think 1206, 1207, the ability to help our allies and partners 
to develop capacity against terrorism is critically important. 
We have used those authorities, we have used funds an 
available. I would be the first to say please continue that 
funding because it is very helpful.
    Mr. McHugh. Thank you, sir.
    Admiral Keating. Can I be the second to say?
    Mr. McHugh. Absolutely.
    Admiral Keating. Let me be the second to pile on to John. 
Those two funding streams are of dramatic impact in all of our 
area of responsibility. Case in point, we have given a little 
bit of money that you have given us to Indonesia and Malaysia. 
The incidents of piracy in the Strait of Malacca, a crucial 
strategic chokepoint, have gone from upwards of 40 2 years ago 
to less than 5 in 2008 as a direct result, we believe, and we 
can provide you the measures of effectiveness, due to 1206 
funding. Radars, communications capabilities, information 
sharing, training that we have been able to give those 
countries strictly because of 1206 funding.
    Mr. McHugh. There are those who are interested in putting 
rather strict ties as to certain qualifications, whether in the 
European theater, it is a percentage of their GDP on military 
spending, et cetera. I would suspect, but I don't want to put 
thoughts or words in your minds and mouths, that you would 
support the greater flexibility in the utilization of those 
funds; is that a fair assumption on my part?
    General Craddock. Absolutely, Congressman, I would. I 
looked at two efforts we have ongoing. I can provide this for 
the record in detail. In one effort we were using 14 different 
programs and funding streams, in another one we used 11. And it 
is an enormous, complex effort and takes incredible energy to 
go out find all these, to be able to get pieces and parts, put 
it together to do this. And what we really need also is 
multiyear authority on some of this, because we need to be 
consistent and persistent in our approach. But if we are good 
one year and then we are absent without leave the next year, 
our allies and friends wonder if we are really serious about 
this.
    Mr. McHugh. Admiral, I trust you would agree with that.
    Admiral Keating. Ditto. Yes, sir.
    Mr. McHugh. General Sharp, you made a comment that 
certainly comports with most of the intelligence reports that I 
have seen about Kim Jong-il being in charge. Having said that, 
I'd be interested in your assessment, what has the current 
global economic crisis done with respect to the stability of 
that regime? Are things deteriorating there in terms of the 
stability? And if so, what are we or what do you think we 
should be doing to try to avert a total collapse, which if 
there is one thing worse than Kim Jong-il I guess it would be a 
total collapse in a catastrophic manner?
    General Sharp. We aren't seeing a huge effect. Kim Jung-il 
I think is still in complete control of his military and his 
policy of military first, and any resources he gets goes to 
improving his military, to keeping them loyal to him continues. 
In fact in his most recent, if you will, State of the Union 
Address, he called upon his people to sacrifice even more so 
that the military could remain strong and to remain in effect 
loyal to Kim Jung-il.
    So I think what he is doing right now and the provocations 
is doing exactly that, seeing to what point can he push the 
rest of the world to get concessions to be able to continue the 
regime that he is in charge of right now.
    Mr. McHugh. That is a hell of a recruiting tool, isn't it?
    Mr. Chairman, I am going to yield back. But before I do, 
let me thank these distinguished leaders for their service. I 
don't want to assume anything, but this may be General 
Craddock's final appearance before this committee. And sir, as 
we do to your comrades as well, we wish you all the best in 
this Nation that in fact many nations abroad are much better 
for the sacrifices and the great leadership you brought. And to 
all of you gentlemen, thank you.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. Before I ask a final question, Mr. Sestak, 
second round.
    Mr. Sestak. Admiral Keating, the Secretary of State has 
said that China is the most important strategic relationship we 
have about a year ago when she was in a different job. She also 
has emphasized kind of the strategic future of that area out 
there in the world; in fact her first visit was out there. We 
have looked at Guam as sort of an emphasis for the Air Force 
and some Navy and Marines. And in the General's testimony he 
mentions that we want to come out of that theater more naval 
and air centric.
    The question is that for the Navy to keep one aircraft 
carrier in the Persian Gulf you need seven in the force 
structure in order to rotate one out there. So it takes seven 
aircraft carriers to keep one forward deployed, which has often 
been why you have had to explain so much over the years, even 
though it was a few forward why it is so important.
    Do you think Guam could potentially be a place where an 
aircraft carrier battle group, as you look at the honest broker 
and the strategic area of the world, we do away with that 
requirement to have X amount of force to keep rotating them. 
Because the Air Force can fly in very rapidly and the Marines 
are already there or will be. Is that something we should be 
looking at, particularly since all planning indicates you need 
two to defend one. Two carriers, each of them fly--you know, in 
a crisis, you always want two there normally.
    Admiral Keating. Well, Congressman, parts of your rationale 
are interesting to me, shall I say. The seven to make one, I 
don't want to disagree with your calculus, but that is a higher 
number in the denominator than I am familiar with. Setting that 
aside, I don't know that Guam, Andersen Air Force Base, Naval 
Air Station (NAS) Guam will ever replace an aircraft carrier. 
In my estimation they will not.
    Mr. Sestak. I meant put the aircraft carrier there, put a 
second carrier out there.
    Admiral Keating. If it means more aircraft carriers for the 
Pacific Command I am all for it, Congressman.
    We have got about the right number out there right now, 
Congressman, of carriers in the Pacific. The USS John C. 
Stennis is out on a classic West Pac cruise as we speak. USS 
George Washington. We enjoy the support of carriers transiting 
the Pacific Command to get to the Central Command, and we have 
some of John's guys that occasionally get over into our AOR.
    The mix is about right. We would certainly like the 
opportunity to put carriers into Guam for a refit, refresh and 
liberty for the crew. I have done it, it is fabulous. All three 
of those, mostly, we could upgrade the core capacity. One way 
of saying, we would enjoy the opportunity to bring carriers in 
and out of Guam and would anticipate the agreed implementation 
plan part of the DPRI to provide for those infrastructure 
upgrades.
    Mr. Sestak. Thank you. And General, one last question on 
NATO. I was curious, over the last couple of years we seem to 
flog NATO hard because they hadn't, according to a lot of 
comments, provided as much forces as one might believe they 
would have to Afghanistan. And each country has its own caveats 
of how it operates there. But more to the point, and this is 
just a lesson I would be curious about. It seemed to me as 
though and the Chairman of the Joint Chiefs of Staff for our 
contribution said in Afghanistan we do what we can, in Iraq we 
do what we must.
    I had been always struck that we never had met our own 
commitment as the U.S., as our Nation to NATO's commitment of 
how many forces were there to be training the Afghanistan 
police and troops. I don't think we ever got above 37 or 38 
percent.
    Do you think in retrospect that our efforts were correct to 
push them so hard for their contribution when we were just 
doing what we can, rather than what we must? And second, we 
never met our own commitment for how many troops we had been 
assigned for the training of Afghanistan police and troops.
    General Craddock. Congressman, there are a couple of 
different themes there. First of all, I would submit based on 
my studies assessments for the last two years, four-plus 
months, the United States has met every commitment it made to 
the International Security Assistance Force (ISAF), to include 
the Afghan national army training.
    The original construct was the Group of Eight (G8) nations 
came in and took over responsibility for functions. And the 
United States accepted the responsibility for training the 
Afghan National Army. The Germans accepted the responsibility 
for training the police in the beginning. After two or three 
years the Army was coming along, better than the police, but we 
realized there needed to be an acceleration, we NATO, as did 
the United States. So they put more Army trainers on the 
ground. Combined Security Transition Command-Afghanistan (CSTC-
Alpha) grew some 3,500 Army trainers at all levels to monitor, 
train the ministry all the way down to the kandaks, the rifle 
battalions. At the same time there was no increased commitment 
for police training. It kind of putted along inefficiently and 
not doing very well. The European Union (EU) came in and said 
they would help out with a European Police (EUPOL) force that 
ultimately about 240, and the United States realized if we are 
going to make this work with security forces we have to have 
public security police and national security Army, and that is 
when the U.S. took over the lead for police training. And CSTC 
office said I need another 3,500 and the U.S. was strapped to 
provide it. But over time has gotten pretty close, far, far 
beyond any other contributions.
    Now, the ISAF force is governed by a combined joint 
statement of requirements. That is the troop list. There were 
no apportioned numbers that every nation had to provide. Every 
nation said I will do one of those and I will do this and I 
will do that. And the U.S. took over all of the east, Regional 
Command East (RC-East), and parts of the south. And the U.S. 
provides the lion's share--far the largest share of the 
headquarters.
    So I would submit the U.S., in its plus-up last year of the 
east and its plus-up now of the east and south to the tune of 
about 30,000, has gone far beyond, and when this is done we 
will have over 50 percent of the force there--58,000 today in 
NATO, 26,000 the U.S., the rest are coming. The rest of NATO 
has yet to ante up and meet their commitment.
    Mr. Sestak. Thank you. And just one comment. I was 
responding to some Joint slides over the past two years and the 
Congressional Research Service (CRS) study based upon those 
slides, of our not meeting our commitment. So they have been 
wrong. Thank you.
    The Chairman. I thank the gentleman.
    Let me follow through on that, if I may. Right after the 
United States was attacked, General Craddock, on 9/11, NATO, if 
I understand it, invoked Title V of the charter; am I correct?
    General Craddock. Correct, Article V.
    The Chairman. What action did NATO take under that article?
    General Craddock. As I understand, NATO offered NATO AWACS, 
Airborne and Early Warning Systems, to the United States.
    The Chairman. That was it?
    General Craddock. Yes, sir. To my knowledge.
    The Chairman. Nothing else?
    General Craddock. No, sir. NATO followed up by initiating a 
maritime operation, Operation Active Endeavor (OAE), in the 
Mediterranean area, which is a contribution to steam around, 
interdict aberrant ships' tracks to see if they are carrying 
terrorist weapons or terrorists throughout the region. But that 
was later on, not under an Article V response.
    The Chairman. That was it?
    General Craddock. As I said, Chairman, to my knowledge, 
that is it. There may be others I am not aware of.
    The Chairman. You would know.
    General Craddock. I wasn't there then, I was somewhere 
else. But that is what I understand the case is.
    The Chairman. Admiral Keating, are tensions diffused in the 
Taiwan Strait areas or are they as tense as they were two years 
ago?
    Admiral Keating. Chairman, tensions are reduced. I would 
not say they are diffused. It remains an area of concern to us.
    Chairman, you may be aware. I will provide to you the 
numbers of missile systems that China has on their side of the 
strait. We know about them. President Ma, the newly elected 
President of Taiwan, has embraced a less aggressive posture 
than his predecessor. And dialogue across the strait is richer 
today and is more productive than it was in the years preceding 
his election. So tensions are reduced, but they have not 
vanished, sir.
    The Chairman. Thank you. Let me again thank you, each one 
of you, for your leadership, your dedication, your integrity. 
It is certainly good to have you serving our country. I know 
every member of this committee appreciates what you have done.
    General Craddock, this is your last appearance, as I 
understand it. We wish you well. If I remember, it is some 38 
years in uniform; is that correct?
    General Craddock. It will just be short of 38 years when I 
retire, yes, sir.
    The Chairman. Well, congratulations to you on your 
successful career.
    General Sharp, thank you. And Admiral Keating, thank you.
    [Whereupon, at 3:30 p.m., the committee was adjourned.]



=======================================================================




                            A P P E N D I X

                             March 24, 2009
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 24, 2009

=======================================================================


[GRAPHIC)(S) NOT AVAILABLE IN TIFF FORMAT]

=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 24, 2009

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. WILSON

    Mr. Wilson. I was happy to read in your written statement, that 
Pacific Command has identified the need and programmed $8.4 million for 
an improved Joint POW/MIA Accounting Command (JPAC) facility. What is 
your assessment of JPAC manning? Do you plan to increase JPAC manning 
levels, as well?
    Admiral Keating. JPAC is authorized 407 billets, 246 military and 
161 civilian. Its current manning is 86% with 97% (239) military and 
70% (112) civilians onboard. The low percentage is due to two primary 
factors: (1) 74 military-to-civilian conversions and (2) the closing of 
the Navy Human Resource Service Center (HRSC)-Pacific, its servicing 
personnel center. The HRSC-Pacific was part of a base realignment and 
closure, which directly impacted JPAC's ability to hire personnel. 
However, as of January 2009 HRSC-Northwest has managed JPAC's personnel 
actions and made its requirements a top priority.
    JPAC is also undergoing a comprehensive manpower survey and 
analysis which should be completed by the end of this year. The results 
of this process should determine and validate the organization's 
manpower requirements, and provide the U.S. Pacific Command and JPAC 
the necessary information to make informed decisions on future 
personnel structure and requirements.
    Mr. Wilson. Based on your written statement regarding Congressional 
support for DOD Dependent Schools, you have pointed out the absolute 
necessity for a military construction program to recapitalize an old, 
worn-out set of school facilities in your command. Can you give us a 
better sense of the need for this military construction, why you 
consider it so important, and the magnitude of what is needed in FY 
2010 and beyond?
    General Craddock. For more than a decade, DODEA MILCON funding has 
not kept pace with its recapitalization requirement by either industry 
standards or DOD facility sustainment standards. As a result, many 
DODEA schools, nearly half of which are in Europe, are in poor/failing 
condition and in need of repair or replacement. Most notable problems 
include fire and life safety deficiencies, overcrowding, and failing 
building systems. The condition of these schools is a top quality of 
life issue for members and families serving in Europe, where there are 
no affordable schooling alternatives. Consequently, the quality of our 
schools has also become an important readiness issue. If service 
members are dissuaded from serving in Europe by deficiencies in crucial 
quality of life programs like DODEA schools, the morale and 
effectiveness of the assigned forces will suffer.
    To address this problem, we have worked closely with DODEA to 
increase their MILCON funding in the coming years. The FY10 President's 
Budget includes $142M for school replacements or upgrades in Europe. I 
estimate an additional $300-400M in European school requirements will 
be included in budget years FY11-15. These projected funding levels 
will eliminate the recapitalization backlog; however, DODEA must 
continue to invest a minimum of $50M in MILCON per year in Europe to 
keep pace with school sustainment needs. This effort is well supported 
within OSD; however, Congressional support will clearly he needed as 
the enhanced DODEA MILCON program moves through the budget process.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. LARSEN
    Mr. Larsen. Earlier this year, Secretary Gates testified to this 
committee that he could envision U.S. and Chinese troops serving side-
by-side in a multilateral operation. China's recent Defense White Paper 
lays out a concept of ``Historic New Missions'' and focuses heavily on 
``Military Operations Other Than War.'' The PLA has recently stepped up 
its multilateral efforts by engaging in counter-piracy operations in 
the Gulf of Aden and peacekeeping operations around the globe. Could 
you share your views regarding the PLA's cooperation with foreign 
militaries? Could you discuss potential areas of military cooperation 
with China in the PACOM area of responsibility?
    Admiral Keating. China has increased its efforts to assist in 
global security and stability operations. With its involvement in the 
Gulf of Aden, the PLA is now aware of the complexities of working with 
multinational coalitions in peacekeeping operations. Key to future 
cooperation between the PLA and other foreign militaries, however, is 
the realization from the Chinese of the importance of their leadership 
responsibilities as well as the multinational framework to achieve 
regional security.
    Potential areas of military cooperation with China in the PACOM 
area of responsibility may include humanitarian assistance and disaster 
relief, search and rescue, and counter proliferation operations of 
which both nations have shared interests in the Asia-Pacific region.
    Mr. Larsen. I have spoken with you before about our mutual support 
for mil-to-mil exchanges with China. These exchanges reduce uncertainty 
about strategic intentions and build long-term relationships that will 
help us avoid future conflict. As we are all aware, China cut off mil-
to-mil exchanges in response to U.S. arms sales to Taiwan last year, 
and restarted them only recently, when Deputy Assistant Secretary of 
Defense for East Asia Affairs David Sedney made a visit to the country. 
Could you discuss the value of mil-to-mil exchanges and let the 
committee know what exchanges are currently planned?
    Admiral Keating. Although military-to-military relations with China 
resumed in May 2009, the details of specific engagements for the 
remainder of the year are currently being discussed with Beijing. 
Engagements may include visits by U.S. military leaders such as the 
commanders from Pacific Command, Marine Forces Pacific, and Pacific Air 
Forces, and exchanges at the Mid-Level Officer and Senior Enlisted 
Leaders level from both nations.
    These military-to-military exchanges are essential not only to 
increase transparency and reduce uncertainty about strategic intentions 
between the U.S. and China, but also to create venues to discuss 
security issues beneficial to both nations as well as others in the 
Asia-Pacific region.
    Mr. Larsen. Admiral Keating, I would like to ask you about how the 
harassment of the USNS Impeccable has affected the U.S.-China military 
relationship. Can you give the committee an update on China's response 
to the Department of Defense's official protest? Do you anticipate that 
this incident will have any long-term effect on U.S.-China military 
relationships?
    Admiral Keating. To date, we have not received an official response 
from the Chinese government on the protest issued by the Department of 
Defense regarding the USNS Impeccable incident. I assure the Committee, 
however, that the incident has not changed the U.S. perspective on 
exercising its rights of maritime navigation.
    As such, I do not foresee any long-term effects on the U.S.-China 
military relationship resulting from this incident. It is in both the 
U.S. and China's strategic interests to maintain a beneficial military-
to-military relationship to effectively address regional security 
issues and avoid future conflict.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. LAMBORN
    Mr. Lamborn. Are you aware that commercial data providers now have 
the capability to allow you, as a combatant commander, to directly task 
an imagery satellite and downlink the high-resolution imagery directly 
into your theater of operations?
    Admiral Keating. U.S. Pacific Command is aware that it can task 
commercial imagery satellites and does so as part of its operations.
    Mr. Lamborn. Do you believe that such a capability would be useful 
in carrying out your mission?
    Admiral Keating. Such capability is useful in carrying out the U.S. 
Pacific Command mission, especially in the area of Humanitarian 
Assistance/Disaster Relief (HA/DR). The ability to download timely 
commercial imagery and provide directly to on-the-scene Non-Government 
Organizations (NGOs) and host country officials are of great benefit in 
coordinating HA/DR efforts. Additionally, as most theater operations 
are now conducted with bilateral partners, providing these partners 
with timely unclassified commercial imagery is helpful in coordinating 
such operations.

                                  <all>

</pre></body></html>
